r
No.
IN THE
SUPREME COURT OF THE UNITED STATES
Isidoro Rodriguez,
Petitioner,
vs.
Virginia State Bar Disciplinary Board,
Respondent,
On Petition for a Writ of Certiorari to
The Supreme Court of The Commonwealth of Virginia
Certificate of Unrepresented Petitioner
As required by the Supreme Court Rule 33.1(h), I certify that the document
contains 6011 words in Century Schoolbook, type font 12, excluding the parts of the
document that are exempt by Supreme Court Rule 33.1(d).
I, declare under the penalty of perjury that the foregoing is true and correct.
Executed: July 13, 2020.
ictfully submitted,
IsidoroRo/higu^?}
United States Address:
South American Office•'
2671 Avenir Place, Apt. 2227
World Trade Center
Vienna, Virginia 22180
Calle 76 No. 54-11, Office 313
Telephones: 1.541.477.5350
Barranquilla, Colombia
e ■ mail:Business@isidororodrigue z.com
Telephone: (011)57.300.658.7220
Web: www.isidororodriguz.com
Page 1 of 1

